   CHICAGO’S O’HARE
MODERNIZATION PROGRAM
  Federal Aviation Administration

   Report Number: AV-2005-067
    Date Issued: July 21, 2005
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Chicago’s O’Hare                     Date:    July 21, 2005
           Modernization Program
           Federal Aviation Administration
           AV-2005-067

  From:    Kenneth M. Mead                                     Reply to
                                                               Attn. of:   JA-10
           Inspector General

    To:    Federal Aviation Administrator


           In response to a request from Representative Henry J. Hyde and former
           Senator Peter G. Fitzgerald, we examined the Federal Aviation Administration’s
           (FAA) process for reviewing and approving the City of Chicago’s (City) O’Hare
           Modernization Program (OMP). This report presents the results of our review of
           FAA’s involvement in the City’s OMP.

           Specifically, we focused our review on FAA’s (1) process for reviewing the
           financial viability of the OMP, and (2) actions to redesign the airspace to
           accommodate the OMP. We did not assess FAA’s Environmental Impact
           Statement (EIS) of the OMP during this review, since there is a well-established
           Federal environmental review process governed by the National Environmental
           Policy Act and other applicable environmental laws. This review process involves
           the participation of several Federal agencies, state and local authorities, and the
           general public. Moreover, the Federal courts are available for those with legal
           standing (see the scope and methodology in Exhibit A).

           We periodically met with FAA officials and provided the Agency a draft copy of
           this report for its review. Where appropriate, we have revised the report to reflect
           FAA’s comments. FAA generally agreed with the report’s recommendations.
                                                                                                                   2



INTRODUCTION
Delays and congestion have plagued O’Hare for more than 30 years, in spite of
regulatory intervention. Controls on landing slots and schedules have temporarily
brought some relief, but they do not accommodate demand and can stifle
competition.

In 2001, the City developed the OMP—a proposal to build one new runway,
relocate three existing runways, extend two others, and complete other
infrastructure improvements designed to increase the efficiency and capacity of
O’Hare. The OMP is estimated at $6.6 billion 1 in 2001 dollars. In addition to the
OMP, the O’Hare 20-year Master Plan also includes the Capital Improvement
Program (ongoing maintenance projects such as resurfacing a runway at an
estimated cost of $4.1 billion) and the World Gateway Program (additional gates
and terminals on the east side of O’Hare at an estimated cost of $2.6 billion). The
total estimated cost of the O’Hare 20-year Master Plan is $13.3 billion. Exhibit B
contains further information on O’Hare’s 20-year Master Plan.

The City plans to implement the OMP in two phases over an 8-year period.
Phase 1 and Phase 2 are scheduled to be completed by 2009 and 2013,
respectively. The City is planning on receiving a sizable Federal investment for
the OMP, with approximately $2 billion coming from FAA-approved Passenger
Facility Charges (PFCs, $1.45 billion) and Airport Improvement Program grants
(AIP, $594 million). Exhibit C provides further information on the OMP funding
streams and approval process. The City’s and FAA’s models have projected that
the OMP will provide significant benefits in reducing delays and increasing
capacity at O’Hare. According to these models, delays will be reduced from an
average of 19.2 minutes per flight in 2004 to an average of 5.0 minutes per flight
in 2013, while expanding airfield capacity from an average of 2,712 flights per
day in 2004 to an average of 3,169 flights per day (peak month average daily
flights 2 ) in 2013.

RESULTS IN BRIEF
There is no question that capacity constraints exist at O’Hare and that these
constraints affect the efficiency of the entire National Airspace System. The OMP
is designed to address O’Hare’s capacity constraints. But the complexity and
magnitude of the OMP cannot be overstated, as it is one of the largest and most
costly reconfigurations of an airport in the United States. In terms of national

1
    The $6.6 billion cost estimate for the OMP includes the cost of all airfield projects (design and construction), land
    acquisition, noise mitigation, and other ancillary costs associated with the OMP.
2
    In modeling the OMP, FAA used the “peak month average daily flights.” This number is the average daily flights
    during the peak month of the year (the month with the most flights).
                                                                                3


infrastructure projects, the OMP may be second only to Boston’s Central
Artery/Ted Williams Tunnel project (the “Big Dig”), which is estimated to cost
$14.6 billion when completed. We identified two areas where FAA will need to
focus greater attention: (1) verifying that the OMP’s costs, schedule, and sources
of funding are realistic, reasonable, and credible and that any known or reasonably
anticipated risks that could affect the Phase 1 and Phase 2 project milestones are
fully disclosed and considered; and (2) redesigning airspace necessary to realize
the benefits of OMP airfield improvements in reducing flight delays and
increasing capacity.

We are making a series of recommendations to FAA regarding the performance of
its due diligence when reviewing the OMP financial plan prior to approving any
PFC or AIP grants and with respect to the airspace redesign changes that are key
to realizing the benefits represented in the OMP. One of these recommendations
pertains to the appointment of one senior FAA official with overall responsibility
for airspace redesign to direct the planning, resources, budget, schedule, and
implementation of airspace changes necessary to support the OMP.

• OMP Costs, Schedule, and Sources of Funding Must Be Verified as
  Realistic, Reasonable, and Credible. The City has submitted to FAA a
  Request for a Letter of Intent (LOI) to provide multi-year funding ($30 million
  each year for 10 years) of AIP discretionary grants for OMP Phase 1 projects.
  As part of the LOI, the City submitted a summary of the estimated capital costs
  for the entire OMP, including more specific costs for Phase 1 projects, a
  preliminary implementation schedule for all OMP airfield projects, and a
  financial plan identifying the sources of funds and expected cash flows needed
  to complete the Phase 1 projects.

   FAA’s policy requires a review of the financial plan for Phase 1 before
   approving PFC or AIP funds. As part of its review, FAA should consider not
   only the stability of the financial plan for Phase 1, but also the reasonableness
   of the overall OMP financial plan, which includes Phase 2. This is critical
   because most of the benefits of the OMP are contingent upon completing both
   Phase 1 and Phase 2. The airlines’ approval of Phase 1 is conditional on the
   City receiving the $300 million in Federal funds, and the airlines have yet to
   approve Phase 2. FAA must also ensure that the benefits and costs represented
   for both Phase 1 and Phase 2 are fully disclosed and considered.

   Since the announcement of the OMP in 2001, the City has advertised the OMP
   as a two-phased, multi-year program with an estimated price tag of $6.6 billion
   in 2001 dollars. Projections made in 2001 dollars are not likely to be the actual
   cost of the OMP. We have seen cost estimates prepared by the City ranging
   from $7.1 billion to $8 billion. FAA, in its review of the LOI, must ensure that
   the statement of costs is credible and includes escalations for any anticipated
                                                                                                                    4


      schedule delays and rising labor or materials costs. For example, the cost of
      iron and steel has increased nearly 48 percent between 2001 and June 2005.

      The City estimated that Phase 2 will cost $2.5 billion, but detailed project
      specifications and cost estimates will not be completed until after 2006, when
      the City completes the final design of Phase 2. FAA will need to evaluate the
      risk to cost estimates due to changes in project scope, final engineering
      changes, labor and material cost increases, and other factors and then will need
      to disclose their potential effect on the cost of the OMP. FAA must ensure the
      financial plan and the accompanying schedule are realistic and take into
      account any risks to cost due to potential schedule slippage (e.g., a delay in
      FAA’s approval of the OMP or winter weather delaying construction). This is
      apart from ongoing lawsuits and the threat of other legal action to delay or
      prevent the OMP from being completed.

      In its OMP financial plan, the City is making assumptions about the amount of
      money it will receive from two major funding sources that require
      congressional or other Federal approval, which the City has not yet received.

      − First, the City is requesting an unprecedented amount of AIP discretionary
        funds for Phase 1—$300 million or $30 million each year for 10 years. It is
        not known at this time whether FAA or Congress will approve this level of
        AIP discretionary funding given that FAA’s budget request of $3 billion in
        AIP funding for fiscal year (FY) 2006 is $472 million less than in FY 2005.
        Furthermore, there will be competing interests for AIP discretionary grants
        in the near future as other airports begin planning large modernization
        programs. For example, in February 2005, as part of its $3 billion
        expansion program, Washington-Dulles International Airport requested
        $208 million in discretionary AIP grant funds to build a fourth runway. 3
        The Los Angeles International Airport is planning an approximately
        $11 billion modernization plan, for which we understand the Airport may
        request a significant AIP discretionary grant.

      − Second, the City is assuming Congress will authorize an increase in the
        PFC maximum charge from $4.50 to $6.00 by 2011. If the increase is not
        authorized, the City will be overstating its PFC collections by nearly
        $241 million for the 4-year period from 2011 through 2014.

      FAA needs to ensure the City has adequately disclosed how it plans to cover
      any funding shortfall from AIP discretionary grants or PFCs, including who
      will pay what amounts and when. Additional OMP costs or reductions in AIP
3
    The total cost of the fourth runway is estimated at $356 million. Of that, Dulles Airport is requesting $207.8 million
    in AIP discretionary funds (58 percent of the total project costs), along with $34.3 million in PFCs (9.6 percent of
    the total cost).
                                                                                                                    5


      discretionary grants or PFCs will require the City to issue additional bonds to
      address the funding gap. For example, if the City’s request for the entire
      $300 million in AIP discretionary grants for Phase 1 is not approved, the City
      plans to issue additional bonds to cover the shortfall. According to the City, an
      additional $300 million bond issuance would require estimated debt service
      payments of approximately $24 million annually. These payments would
      ultimately be passed on to the airlines through increases in aircraft landing and
      terminal use fees. The airlines would in turn attempt to pass on these costs to
      the consumer. FAA will need to consider the impact of any funding shortfall
      from AIP discretionary grants or PFCs and the corresponding effect of fee
      increases on the airlines’ cost per enplaned passenger before making the
      appropriate disclosures.

      The Majority-In-Interest airlines 4 have agreed to Phase 1, but their approval is
      contingent upon the City receiving $300 million in AIP discretionary grants for
      the Phase 1 airfield projects. The Majority-In-Interest airlines are still
      negotiating with the City for approval of Phase 2, including the funding
      sources. FAA must exercise due diligence when reviewing the City’s request
      for an LOI to ensure that the sources of funding are sufficient to handle the
      costs of Phase 1 and Phase 2 projects and that the funds are not otherwise
      committed or encumbered for other programs in O’Hare’s Master Plan. We
      are making this point because FAA has legal obligations to assure that the
      project costs not paid for with AIP grants or PFC revenue will in fact be
      covered by non-Federal funds (such as airport-issued bonds) before approving
      the LOI for Phase 1.

      FAA needs to fully and thoroughly carry out its legal obligation for approving
      and authorizing PFC and AIP grants. Under the PFC statute, FAA is required
      to make several findings before approving a PFC, including one that the
      proposed PFC will result in no more revenue than is necessary for financing
      the specific project. In July 2004, the United States Court of Appeals for the
      District of Columbia Circuit reversed FAA’s approval of the City of Chicago’s
      $221 million PFC application for the preparation of the EIS at O’Hare,
      concluding that FAA had not fulfilled its legal obligation to analyze the cost.

      The Court stated that, “FAA cannot simply declare its ‘expertise’ [in
      estimating costs]; it must exercise that expertise and demonstrate sufficiently
      that it has done so.” Given that there could be future legal challenges to FAA’s
      decisions on the O’Hare modernization project, it is important for FAA to

4
    Majority-In-Interest is defined in the O’Hare Airport Use Agreement. During a fiscal year, the Majority-In-Interest
    is either (a) any five or more airline parties that together paid 60 percent or more of the preceding fiscal year’s
    airport fees and charges or (b) any majority of airline parties that together paid 50 percent or more of the preceding
    fiscal year’s airport fees and charges.
                                                                                6


   exercise due diligence in reviewing the City’s request for an LOI, including the
   OMP financial plan, and any PFC applications the City submits to fund the
   OMP’s design and construction projects. The Court’s decision underscores the
   need for FAA to take corrective action and exercise due diligence in reviewing
   the financial plan.

   In our opinion, now is the time for FAA to raise its level of review for projects
   the size and scope of the OMP. The City has provided the necessary
   information to allow the FAA to carefully scrutinize all aspects of and
   assumptions made in the OMP financial plan. Now, it is the responsibility of
   the FAA, like any prudent investor, to analyze the validity and reasonableness
   of the City’s plan.

• Airspace Changes Must Be Implemented To Achieve and Sustain the
  Benefits of the OMP, but FAA Has Had Problems Making the Transition
  From Planning to Implementation. The planned benefits (reduction in delays
  and increase in operations) of the OMP airfield changes and other
  infrastructure changes are contingent upon FAA completing substantial
  changes to the airspace. In other words, for the public investment to yield the
  benefits as advertised, airspace changes must be implemented with the OMP
  airfield changes or else FAA may have to re-implement administrative controls
  to manage congestion at O’Hare.

   By implementing both the OMP and the required airspace changes as opposed
   to doing nothing (not implementing the OMP and not making changes to
   airspace):

   − In 2009 after the completion of Phase 1, the average daily delay per flight is
     forecasted to decrease from 15.9 minutes to 10.3 minutes and then to
     5.0 minutes after the completion of Phase 2 in 2013.

   − In 2009, the forecasted number of daily flight operations (arrivals and
     departures) increases from 2,750 to 2,987 and then to 3,169 in 2013.

   Airspace changes are needed not only within a 40-mile radius of O’Hare but in
   other parts of the Great Lakes region: over 300 miles east to Cleveland, Ohio,
   and 400 miles northwest to Minneapolis, Minnesota.

   Airspace changes required to support the OMP include designing new air
   traffic control sectors and routes, acquiring new radio frequencies, and
   purchasing and deploying radar and communication equipment. FAA needs to
   synchronize airspace changes with airfield improvements, sequence them in an
   order that maximizes the benefits from the airfield projects, and commit the
   necessary funding levels to support the airspace changes. The key now is
                                                                                                        7


      moving from planning to implementation, with implementation being the
      vulnerable point in FAA’s past efforts to redesign airspace.

      Our prior work 5 has demonstrated that FAA has substantial difficulty moving
      from the planning stages of airspace redesign to execution due to (1) unreliable
      cost and schedules for the vast majority of airspace projects because FAA does
      not clearly identify what is needed to shift from project design to project
      implementation, (2) delays of 3 years or more in projects due in part to changes
      in project scope, and (3) lack of coordination between the designers of the
      airspace and the implementers of the changes. The problem in the case of
      O’Hare is that if FAA’s airspace changes are not implemented in synchrony
      with the OMP airfield changes, the benefits of investing in the OMP will be
      greatly overstated.

      With respect to the airspace redesign necessary for the OMP, FAA has
      established the Chicago Area Modernization Program Office to coordinate
      Agency efforts. This is an important step, but airspace changes not under the
      Program Office’s jurisdiction, outside of Chicago airspace (east to Cleveland
      and northwest to Minneapolis), also need to be made to sustain expected
      downstream capacity increases and reductions in delays. These changes are
      critical and need to be in place by 2013.

      The current cap on flight arrivals at O’Hare is set to expire in October 2005.
      FAA has proposed extending the cap on flight arrivals until 2008. According
      to FAA, the proposed extension to the cap on flight arrivals at O’Hare will
      gradually be relaxed as Phase 1 projects are completed and will be lifted
      entirely in 2008. However, if required airspace changes are not fully
      implemented, then O’Hare will not receive the long-term benefits of reducing
      delays and increasing capacity (or the benefits represented in the OMP Draft
      EIS) from an average of 19.2 minutes per flight in 2004 to an average of
      5.0 minutes per flight in 2013, while expanding airfield capacity from an
      average of 2,712 flights per day in 2004 to 3,169 flights per day (peak month
      average) in 2013. If this is not achieved, FAA may have to continue to
      implement administrative controls to manage congestion at O’Hare. Our work
      has identified specific actions that FAA should take to ensure the planned
      airspace changes for the OMP are implemented.

AGENCY COMMENTS
On April 29, 2005, we provided FAA with a draft of this report. FAA provided us
with a written response, and on May 26, 2005, the Deputy Associate

5
    OIG Report Number AV-2005-059, “Airspace Redesign Efforts Are Critical To Enhance Capacity but Need Major
    Improvements,” May 13, 2005. OIG reports can be found on our website: www.oig.dot.gov.
                                                                                 8


Administrator for Airports and other Agency officials met with us to discuss
FAA’s comments and our recommendations. After this meeting, FAA provided us
with additional comments clarifying its actions taken or planned to address our
recommendations.

FAA disagreed with some conclusions in the report. As stated in its comments,
FAA does not agree with the implication that the OMP proposal (and FAA’s role
in regard to the proposal) is analogous to the “Big Dig.” Our reference to the
Big Dig is to illustrate that the OMP, like the Big Dig, is a large transportation
project that requires an increased level of oversight of project costs and schedule.
FAA also disagreed with the report’s characterization of the City’s AIP funding
request of $300 million for the OMP as “unprecedented.” Only Denver has
received over $300 million in AIP discretionary funding, and this was to build the
new Denver airport. FAA provided $340 million in discretionary AIP funding for
the construction of multiple runways at a new airport in Denver. However, the
$340 million was not a single LOI. The $340 million consisted of a $250 million
LOI in discretionary funding and about $90 million in pre-LOI AIP discretionary
funds. Thus, we are not aware of, nor did FAA provide support for, any other
single airport sponsor’s LOI request or planned LOI request for a single grant of
$300 million in AIP discretionary funds for an existing airport.

In addition, in its comments, FAA disagrees with the implication that it is not
exercising due diligence in analyzing the reasonableness and credibility of project
costs and sources of funding for airport development projects. In our draft report,
we identified the need for increased oversight of the OMP given the size and scope
of the project and the potential for cost or schedule overruns. In its comments,
FAA stated that in the past it has hired financial experts from the private sector to
review requests for Federal funding for large and complex airport development
projects in Seattle and St. Louis. Also, FAA stated it will hire an airport financing
consultant to help analyze the benefits and costs, schedule, and proposed financing
for both phases of the OMP. This analysis will include four tasks: (1) establishing
the current financial situation at O’Hare, (2) analyzing financial impacts under the
proposed OMP Phase 1, (3) analyzing financial impacts under the full OMP, and
(4) reviewing the benefit-cost analysis. The analysis of financial impacts will
include a sensitivity analysis examining the impact of delays in construction
schedules, cost increases, and deviations from the City’s requested LOI amount or
payment schedule.

We would like to point out the importance of doing this review in terms of FAA’s
due diligence to ensure the OMP’s costs, schedule, and sources of funding are
realistic, reasonable, and credible.       The City’s estimate of $6.6 billion
(2001 dollars) is not likely to be the final cost of the OMP due to increases in
construction costs since 2001, potential schedule changes, and less precision in
                                                                                9


Phase 2 costs compared to Phase 1 costs. Also, FAA has been admonished by a
Federal court for its financial review in the past. In 2004, the United States Court
of Appeals for the District of Columbia Circuit reversed FAA’s approval of the
City of Chicago’s $221 million PFC application for O’Hare, concluding that FAA
had not fulfilled its legal obligation to analyze the cost.

FAA generally agreed with our recommendations. As stated previously, FAA
intends to hire a financial consultant to help in its review of the OMP’s benefits
and costs, schedule, and financing. Also, FAA stated that it will appoint a senior
official to serve as a focal point within FAA’s Air Traffic Organization to
coordinate the execution and timing of planned airspace changes associated with
the OMP implementation. To fully meet the intent of our recommendation, we
believe FAA needs to appoint an official to oversee the airspace redesign with the
proper responsibility and authority to decide what needs to be done and when it
needs to be done and then direct FAA units to do it. We recognize that this may
require someone that can cut across bureaucratic lines, has authority over the
entire project, and can speak directly to the Administrator or Deputy Administrator
of FAA.

In light of the importance of the actions FAA must take to ensure the success of
the OMP, we intend to review FAA’s and its consultant’s actions from time to
time. FAA’s full response can be found in the Appendix.

BACKGROUND
Severe capacity constraints at O’Hare affect the efficiency of the entire National
Airspace System. In the past 3 years, the percentage of delayed flight arrivals at
O’Hare increased from 19 percent in 2002 to 27.9 percent in 2004, and the
percentage of delayed flight departures increased from 18.4 percent in 2002 to
28.2 percent in 2004. Aviation delays and congestion have been a significant
problem at O’Hare for more than 30 years. In 1985, FAA established allocation
procedures for slots at O’Hare, including use-or-lose provisions and permission to
buy and sell slots in a secondary market. In 2000, Congress relaxed the slot rules
and phased them out entirely in 2002.

Since that time, recurring delays and congestion have caused FAA to intervene
with an array of administrative actions to mitigate O’Hare congestion and prevent
disruptions from cascading throughout the aviation system. FAA intervened three
times in 2004 to get the airlines to reduce flight schedules. Administrative
responses are not a desirable long-term solution to capacity constraints at O’Hare
because prolonged regulatory intervention can restrict demand and inhibit
competition.
                                                                                 10


There have been alternative proposals to solving capacity constraints at O’Hare
and relieving congestion at both O’Hare and Chicago’s Midway Airport, such as
building a new airport or expanding smaller nearby airports. Plans to build a third
airport have been on the drawing board since the 1980s. At one time, the
Lake Calumet area on the southeast side of Chicago was considered as a location
for a third airport. It was demonstrated in a study to be the most expensive and
environmentally damaging of the sites evaluated. Subsequently, the Illinois
Legislature failed to support development of an airport at the site.

Since 1991, the most likely site for a third airport has been near Peotone, Illinois,
about 35 miles from downtown Chicago. FAA so far has provided $8 million in
funding for the Master Plan and EIS of what would be called the South Suburban
Airport. The need or location of a third airport is not within the scope of this
review. However, the financial plan and airspace redesign for the OMP will have
some impact on how much Federal funding is available for other airport projects
in the Chicago area and whether FAA can make additional airspace changes to
accommodate a third Chicago area airport.

The OMP will be implemented in two phases over an 8-year period. In Phase 1,
scheduled to be completed by 2009 at a cost of $4.1 billion (62 percent of the
OMP costs), the City plans to construct one new runway, relocate one runway,
extend an existing runway, and mitigate noise (at a cost of $2.6 billion); it will
also construct radar facilities, an automated people mover, and a west satellite
concourse (at a cost of $1.5 billion). Over 90 percent of the design for the new
runway has been completed, and over 50 percent of the design has been completed
for the runway relocation and extension. In Phase 2, scheduled to be completed by
2013, the City plans to relocate two runways, extend one runway, and construct a
new western terminal building at a cost of $2.5 billion (38 percent of the OMP
costs). Planning-level cost estimates (which by definition are less precise than
final design estimates) for Phase 2 have been completed, with the final design
scheduled to begin in 2006 and be completed in 2011.

The Majority-In-Interest airlines—United Airlines, American Airlines, and
13 other airlines—are on the record as supporting the OMP and its phased
implementation. They have agreed to Phase 1, but this approval is contingent
upon the City receiving $300 million in AIP discretionary grants for the Phase 1
airfield projects, which FAA must approve and Congress must appropriate.

The City is currently negotiating with the Majority-In-Interest airlines for approval
of the OMP Phase 2, and it is not known at this time when or under what
conditions the City will receive that approval. Phase 2 approval from the
Majority-In-Interest airlines is contingent on the support of either United or
American, the dominant carriers at O’Hare. Together, United (46 percent) and
                                                                                11


American (32 percent) paid approximately 78 percent of O’Hare’s airport fees and
charges in FY 2003.

As shown in Figure 1, the City plans to fund the OMP through four sources: AIP
funds, Federally authorized PFCs, General Airport Revenue Bonds (GARBs), and
third-party financing.

                 Figure 1. Total OMP Funding Streams
                                     ($ in Billions)


                                   AIP, $0.59
                              3rd Party,
                                $0.66



                                PFCs,                  GARBs,
                                $1.45                   $3.89




Before the City can break ground on any of the OMP’s runway projects, FAA
must, by law, complete a review of the environmental impacts of the OMP. For
the environmental review, FAA will produce two documents, an EIS and a Record
of Decision. The EIS discloses and evaluates both the positive and negative
effects, such as those on noise and air quality, of a project with potentially
significant effects on the environment. A Record of Decision is FAA’s official
decision to provide environmental approval for a project to go forward, taking into
consideration its environmental effects and any alternatives. FAA released its
draft EIS in January 2005, held public hearings on it in February 2005, and plans
to release a final EIS in July 2005, which will be followed by the release of its
Record of Decision in September 2005.

FINDINGS AND RECOMMENDATIONS
The OMP, with a 2001 estimated price tag of $6.6 billion, is one of the largest
aviation infrastructure projects ever undertaken in the United States. It may be the
most costly transportation project in the United States to date next to Boston’s
Central Artery/Ted Williams Tunnel project (the “Big Dig,” which is estimated to
cost $14.6 billion when completed but was first estimated at $2.6 billion). The
City is projecting that approximately one-third of the OMP will be funded with
FAA-approved PFCs and FAA-issued AIP grant funds. FAA will need to verify
that the OMP’s costs, schedule, and sources of funding are realistic, reasonable,
and credible and that any known risks that could affect the cost and schedule of
                                                                                 12


the OMP are fully disclosed and considered. FAA must also implement the
necessary airspace changes around O’Hare and outside the Chicago area to realize
the capacity benefits (reduced delays and increased operations) of the airfield
changes.

To Protect the Public’s Investment in O’Hare, FAA Must Ensure That
the OMP Financial Plan as Advertised Is Realistic, Reasonable,
Credible, and Executable
Given the amount of taxpayer dollars at stake in the OMP, it is essential that FAA
fulfill its statutory mandate to ensure, among other things, that the use of the PFC
revenues is adequately justified. The Department has a statutory mandate to
ensure that sufficient funding exists to complete a project before committing AIP
discretionary funds to that project. Fulfilling these mandates will require FAA to
proactively and aggressively analyze the reasonableness and validity of the OMP
financial plan. We are making this point because FAA has the legal obligation to
assure that the project costs not paid for with AIP grants or PFC revenue will in
fact be covered by non-Federal funds (such as airport-issued bonds) before
approving the LOI for Phase 1.

FAA needs to fully and thoroughly carry out its legal obligation for approving and
authorizing PFC and AIP grants. Under the PFC statute, FAA is required to make
several determinations before approving a PFC, including one that the proposed
PFC will result in no more revenue than is necessary for financing the specific
project.

In February 2003, FAA approved the City’s application to use PFCs to fund a
study on the environmental impacts of the OMP. At that time, FAA rendered a
Final Agency Decision and approved a $4.50 PFC to be used only for the portion
of the Runway Formulation Project application involving work leading to the
completion of the EIS. In total, FAA approved more than $221 million in PFCs,
half to be used for the environmental study and half for associated financing and
interest costs. In July 2004, the United States Court of Appeals for the District of
Columbia Circuit reversed FAA’s approval of the City of Chicago’s $221 million
PFC application for the preparation of the EIS at O’Hare, concluding that FAA
had not fulfilled its legal obligation to analyze the cost.

The Court stated that, “FAA cannot simply declare its ‘expertise’ [in estimating
costs]; it must exercise that expertise and demonstrate sufficiently that it has done
so.” Given that there could be future legal challenges to FAA’s decisions on the
O’Hare modernization project, it is important for FAA to exercise due diligence in
reviewing the City’s request for an LOI, including the OMP financial plan, and
any PFC applications the City submits to fund the OMP’s design and construction
                                                                                 13


projects. The Court’s decision underscores the need for FAA to take corrective
action and exercise due diligence in reviewing the financial plan.

Our review has highlighted a number of areas FAA must pay particular attention
to so it can carry out its legal responsibilities for reviewing the OMP financial
plan. Some of these are straightforward and common to the analysis of financial
plans on any large infrastructure project. Other items have implications specific to
the OMP. FAA will need to identify the interrelationships between cost, schedule,
and funding and to assess the potential cascading effects of changes in any single
component. The FAA should consider not only the stability of the financial plan
for Phase 1, but also the reasonableness of the overall OMP financial plan because
the full benefits of the project are reached only upon completing both phases of the
OMP.

Current OMP Costs Estimates Are a Baseline, Which Will Need To Be
Adjusted Upward. The City’s estimate of $6.6 billion for the entire OMP is in
2001 dollars. We have recently seen estimates for the OMP prepared by the City
ranging from $7.1 billion to $8.0 billion when costs are stated in escalated dollars,
(this excludes O’Hare’s Capital Improvement Program estimated at $4.1 billion
and the World Gateway Program estimated at $2.6 billion). Projections made in
2001 dollars are not likely to reflect the actual cost of the OMP, as the costs of
labor and materials have increased since 2001, especially in the construction
industry. For example, the cost of iron and steel has increased nearly 48 percent
between 2001 and June 2005. These increases in cost are not reflected in the
$6.6 billion estimate. This is a matter FAA should review, and the Agency should
ensure the costs of the OMP are stated in escalated dollars and reflect any known
or reasonably expected increases in construction costs.

Cost Estimates for Phase 2 Are Less Precise and More at Risk for Increases.
In 2001, the City estimated that Phase 2 projects would cost $2.5 billion. The City
does not plan to start final design for Phase 2 until 2006, with construction
planned to begin in 2009. Planning-level cost estimates (which by definition are
less precise than final design estimates) for Phase 2 have been completed, with the
final design scheduled to begin in 2006 and be completed in 2011. Given that the
estimate of $2.5 billion is in 2001 dollars and final design has not been completed,
the final cost of Phase 2 will likely be higher. FAA will need to evaluate the risk
to cost estimates due to changes in project scope, final engineering changes, labor
and material cost increases, and other factors and then disclose their potential
effect on the cost of the OMP.

OMP Phase 1 Schedule Delays Could Increase the Cost of the OMP. The City
planned that FAA would approve the OMP by mid-2004 so that construction could
begin on Phase 1 projects. The City had also planned for the first new runway
under Phase 1 to be operational by the start of 2007, with all of Phase 1 completed
                                                                               14


by the start of 2009. Although these plans have been delayed by more than a year
(until at least September 2005, when FAA is expected to issue its Record of
Decision), the City still expects to meet the original milestone schedule. We
believe that the Phase 1 schedule, while aggressive, can still be met assuming that
FAA issues the Record of Decision in September 2005 and that construction
begins immediately thereafter. We based this on our analysis of recent runway
projects at other airports and on the assumption that construction is not further
delayed by lawsuits or injunctions.

Further delays in the OMP construction schedule could occur as a result of a court
order or injunction from ongoing and possible future lawsuits filed by groups
opposed to the OMP. For example, there are two cemeteries that the City plans to
relocate to complete the OMP, and the owners are suing the City to prevent the
removal of these cemeteries. Under court order, the City in July 2003 agreed not
to acquire the cemeteries unless and until FAA issues its Record of Decision. The
FAA anticipates additional lawsuits as the environmental review progresses. As
such, FAA must ensure that the schedule is realistic and takes into account any
known risks that could affect the Phase 1 and Phase 2 project milestones.

A Substantial Part of the OMP Funding Must Be Approved by Congress or
FAA. The City is planning on receiving a sizable Federal investment for the
OMP, with approximately $2 billion coming from FAA-approved PFCs
($1.45 billion), AIP entitlement funds ($66 million), and AIP discretionary grants
($528 million). The City is assuming that Congress will raise the PFC maximum
charge from $4.50 per enplaned passenger to $6.00 by 2011. If the increase is not
authorized, the City will be overstating its PFC collections by nearly $241 million
for the 4-year period from 2011 through 2014.

The City is planning to receive an unprecedented $528 million in AIP
discretionary grants to complete the OMP ($300 million for Phase 1 and
$228 million for Phase 2). In addition, the City plans to request another
$248 million in AIP discretionary grants to finance its Capital Improvement
Program over the next 20 years. If all of the City’s requests are granted, the AIP
discretionary grants it receives for currently planned projects over the next
20 years would total $776 million.

According to FAA, $300 million is an unusually large request for AIP
discretionary grants. As of September 2004, FAA had 30 LOIs with total
payments of $917 million in discretionary grants spread over the next 11 years.
By law, FAA can only use 50 percent of AIP discretionary funds for LOIs. This
issue is particularly important given that FAA’s budget request of $3 billion in
AIP funding for FY 2006 is $472 million (15.7 percent) less than in FY 2005.
Therefore, it is unlikely the City can receive $30 million each year for 10 years.
                                                                                  15


Furthermore, there will be competing interests for AIP discretionary grants in the
near future as other airports begin planning large modernization programs. For
example, as part of its $3 billion expansion program, Washington-Dulles
International Airport requested $208 million in AIP discretionary grants for a new
runway project in February 2005. In addition, the Los Angeles International
Airport recently announced an $11 billion modernization plan, for which we
understand the airport may request a significant AIP discretionary grant.

FAA Needs To Ensure the City Has Adequately Disclosed How It Plans To
Cover Any Funding Shortfalls and That the Funds Are Not Otherwise
Encumbered. If any shortfalls in funding or increases in project costs materialize,
the City has indicated it plans to make up the funding/cost difference by issuing
additional bonds. For example, if the City’s request for the entire $300 million in
AIP discretionary grants for Phase 1 is not approved, the City plans to issue
additional bonds to cover the shortfall but only after approval by the
Majority-In-Interest airlines. According to the City, an additional $300 million
bond issuance would require debt service payments of approximately $24 million
annually, payments that would ultimately be passed on to the airlines through
increases in aircraft landing and terminal use fees. The airlines would in turn
attempt to pass on these costs to the consumer.

FAA will need to consider the impact of any funding shortfall from AIP
discretionary grants or PFCs and the corresponding effect of fee increases on the
airlines’ cost per enplaned passenger before making the appropriate disclosures.
FAA must also ensure that the sources of funding are enough to handle the
expected cash flow needed to pay for Phase 1 and Phase 2 projects and that the
funds are not otherwise committed or encumbered currently or in the future for
other programs in O’Hare’s Master Plan.

Both Phase 1 and Phase 2 Must Be Completed To Get the Full Benefit of the
OMP. The Majority-In-Interest airlines have agreed to the Phase 1 business plan.
However, their final approval is contingent on the City receiving $300 million in
AIP discretionary grants for the OMP. If the AIP funds are not granted, the City
will have to renegotiate approval of Phase 1 with the airlines.

The Majority-In-Interest airlines are still in negotiations with the City for approval
of Phase 2, including the funding sources. Majority-In-Interest rights allow
dominant carriers to delay—or cancel—Phase 2 projects. Given the uncertain
economic outlook of the airline industry, there is no guarantee that all of the
projects planned for Phase 2 will be approved. If Phase 2 is not completed as
planned, the full benefit of the OMP in reducing the average time of delay (down
to an average of 5 minutes per flight by 2013) and increasing capacity (an average
daily increase of 419 departures and arrivals combined) will not be realized.
                                                                                                 16


The current cap on flight arrivals at O’Hare is set to expire in October 2005. FAA
has proposed extending the cap on flight arrivals until 2008. According to FAA,
the proposed extension to the cap on flight arrivals at O’Hare will gradually be
relaxed as Phase 1 projects are completed and will be lifted entirely in 2008.
However, if Phase 2 is not completed as planned, the lifting of the cap on flight
arrivals may be short-lived because Phase 1 infrastructure improvements alone
will not provide the necessary airfield capacity to handle the estimated 1.5 percent
increase each year in flight operations forecasted by FAA. Accordingly, if
Phase 2 is not completed, FAA may have to re-implement administrative controls
that could again limit demand and inhibit competition at O’Hare.


Airspace Changes Must Be Implemented To Achieve and
Sustain the Benefits of the OMP, but FAA Has Had Difficulty
Making the Transition From Planning to Implementation
FAA and Mitre 6 analyses show that building new runways by themselves will
have minimal impact on the congestion and delay problems at O’Hare. Airspace
changes in and around the Chicago area are critical to relieving congestion at
O’Hare and realizing the full benefits of the OMP, although the analysis has not
been completed to finalize the costs and resource requirements in making these
airspace changes.

Reductions in Delays and Increases in Capacity at O’Hare Depend on Both
the OMP Airfield Changes and Airspace Redesign. FAA and the City used
simulation modeling to assess operational delay and travel times associated with
implementing all the necessary redesign plans. Figure 2 and Figure 3 show the
difference between implementing the OMP and required airspace changes and
doing nothing.




6
    The Mitre Corporation functions as FAA’s Federally funded research and development center.
                                                                                                                                        17




  Figure 2. Average Minutes of                                       Figure 3. Average Daily Flight
        Delay per Flight:                                                     Operations:
     With and Without OMP                                               With and Without OMP

 25                                                                  3,250
                                                                                                                                3,169

            19.2
 20
                                                            17.2                                              2,987
                            16.2                                     3,000
                                           15.9
                     15.5                                                                   2,898

 15

                                                                                 2,712              2,750             2,750             2,750
                                    10.3                             2,750

 10



                                                      5.0
                                                                     2,500
  5




  0                                                                  2,250
         2004        2007 - New    2009 - Phase 1   2013 - Phase 2               2004      2007 – New       2009 - Phase 1    2013 - Phase 2
                      Runway        Completed        Completed                              Runway          Completed         Completed

      OMP - w/ Airspace Changes    No OMP - No Airspace Changes       OMP - w/ Airspace Changes         No OMP - No Airspace Changes



Source: Total Airspace and Airport Modeler for 2007 – 2013 data. FAA’s Aviation System Performance Metrics and
Air Traffic Activity Data System for 2004 data.
Note: 2004 figures include the effect of flight caps effective as of November 1, 2004.



• The average forecasted delay per flight decreases from 15.9 minutes to
  10.3 minutes at the completion of Phase 1 in 2009 and to 5.0 minutes at the
  completion of Phase 2 in 2013.

• The forecasted daily flight operations (arrivals and departures) increase from
  2,750 to 2,987 in 2009 and to 3,169 in 2013 (peak month average daily flights).

To further demonstrate the need for both airfield and airspace changes, Mitre
conducted a study that showed how increasing capacity and reducing delays at
O’Hare depend on both the OMP airfield changes and airspace redesign in and
around the airport. Mitre concluded that without the proposed first new runway,
arrival delays will continue to be excessive; and without the proposed airspace
changes, the benefits of the proposed first new runway will be very limited.

As shown in Figure 4, in 2007 the greatest reduction in delays occurs with the
Phase 1 new north runway operational and the associated airspace redesign
completed.
                                                                                                                           18


    Figure 4. Average Minutes of Delay: New North Runway Versus
      No Action Option With and Without Airspace Changes, 2007

                                              19.8                                               19.8
                                                                       19.8   19.4   19.6               19.4   19.6
                 20

                                                            16.3

                 15
                                                     12.8
                         11.7
            M
            I                         9.6
            N    10
            U                   7.5
            T
            E
            S
                   5



                   0
                        New North Runway       No New North Runway      New North Runway        No New North Runway
                          With Airspace            With Airspace             Without           No Airspace Modifications
                          Modifications            Modifications      Airspace Modifications


                                                 Arrival           Departure         Average


         Source: FAA’s presentation of data from the Mitre Corporation

• A combination of airfield and airspace changes provides for more than a
  50 percent reduction in the average minutes of delay per flight from
  19.6 to 9.6 minutes. 7

• Airspace changes alone provide little relief in the average minutes of delay per
  flight—16.3 minutes—when compared to “do nothing” at an average delay of
  19.6 minutes per flight.

• Runway changes alone provide no relief in the average minutes of delay per
  flight—19.6 minutes—when compared to “do nothing,” also at an average
  delay of 19.6 minutes per flight.

FAA has completed the majority of planning for the airspace redesign necessary to
accommodate Phase 1. FAA has identified the airspace changes needed in the
Chicago Air Route Traffic Control Center and the Chicago Terminal Radar
Approach Control facility airspace from 10 to 200 miles out from O’Hare. FAA
plans to add four new sectors, 8 four new routes, and the accompanying air traffic
control procedures. FAA has also identified the equipment and resources needed
to support these airspace changes—the key now is moving from planning to
7
    Mitre’s delay minutes are slightly different from FAA’s delay minutes in Figure 2 because Mitre used more limited
    operational conditions in its model. Mitre’s calculations of delay are based on: (1) flights occurring in good weather
    conditions with only two to three heavily used runway operating configurations versus the five primary runway
    configurations used by FAA, and (2) daytime-only flight schedules versus full-day flight schedules used by FAA.
8
    FAA divides airspace into sections called “sectors.” Air traffic controllers are assigned certain sectors of airspace in
    which to monitor planes.
                                                                             19


implementation, with implementation being the vulnerable point in FAA’s efforts
to redesign airspace. To achieve maximum operational benefits, airspace changes
are needed in other en route facilities in other cities, specifically Cleveland,
Indianapolis, and Minneapolis. These efforts are being pursued under a separate
initiative known as National Airspace Redesign. FAA has not yet finalized the
cost and resource requirements for making these airspace changes.

FAA’s Airspace Redesign Efforts Often Face Significant Delays When
Making the Transition From Planning to Implementation. A strong, direct,
and unambiguous link connects the benefits of the airfield investments to the
redesign of airspace at O’Hare and surrounding areas. Our work on FAA’s
National Airspace Redesign efforts shows FAA has significant problems in
making the transition from planning to implementation. It is important that these
problems do not recur at O’Hare. If FAA’s airspace changes are not implemented
in synchrony with the OMP airfield changes, the benefits of investing in the OMP
will be greatly overstated. Specifically, our work found that:

• Cost and schedules for the vast majority of airspace projects are not reliable
  because they do not clearly identify what is needed to shift a project from the
  design phase to implementation. FAA could not—nor could we—determine
  the cost in FY 2004 of implementing 42 active projects we reviewed.

• Projects have been delayed 3 years or more because of changes in scope,
  environmental issues, or problems in developing new procedures for more
  precise arrival and departure routes. For example, the San Francisco Bay to
  Los Angeles Basin Redesign project (focused on high-altitude routes in the
  region and navigating airspace managed jointly by FAA and the Department of
  Defense) slipped from a 2003 target date to 2008 due to problems developing
  new procedures, problems acquiring equipment, and changes to project scope.

• Project efforts are not effectively coordinated among FAA stakeholders or
  linked to FAA’s budget process. Coordination is ineffective between the
  designers of the airspace and the implementers of the changes. For example,
  19 of the 42 approved projects in FY 2004 had unresolved resource or
  equipment issues.

The establishment of the Chicago Area Modernization Program Office to
coordinate Agency efforts is an important step. However, airspace changes also
need to be made outside of Chicago airspace (over 300 miles east and over
400 miles northwest) to sustain expected downstream capacity increases and
reductions in delays. These changes are critical and need to be in place by 2013.
                                                                              20


Implementing the Airspace Changes To Accommodate the OMP Is a
Complex Effort That Has Significant, Yet Not Fully Defined, Resource
Implications for FAA. To get the benefits of Phase 1 and reduce the average
minutes of delays per flight by almost 50 percent, FAA must modify the airspace
in the Great Lakes region, including airspace around Chicago; South Bend,
Indiana; and Milwaukee, Wisconsin. To do so, FAA needs to add four new
sectors and four new departure routes, acquire additional radio frequencies,
purchase and deploy radar and communication equipment, and train air traffic
controllers assigned to the new sectors. Although FAA has identified the
necessary costs and resources for the airspace changes needed to accommodate
Phase 1, the key now is moving from planning to implementation.

Also, to implement the Phase 1 airspace redesign, the Chicago Air Route Traffic
Control Center will divest some current airspace to Terminal Radar Approach
Control facilities in South Bend and Milwaukee. According to FAA, additional
internal adjustments of the Chicago Air Route Traffic Control Center’s airspace
are also required. Although such airspace exchanges are relatively straightforward
from a conceptual perspective, FAA has had difficulty managing them in the past.

To ensure that proposed airspace changes move forward, the Chicago Area
Modernization Program office needs to finalize and submit to FAA’s Air Traffic
Organization its proposal for approval and funding the airspace changes needed to
support the Phase 1 projects. In turn, the Air Traffic Organization needs to
approve the proposal and commit to the necessary funding levels for the Phase 1
airspace redesign changes. Once approved, airspace design activities need to be
prioritized and key milestones and target completions dates established so that
they coincide with the OMP runway project milestones and target completion
dates.

To get all the associated benefits from the OMP as currently envisioned, FAA also
needs to complete the OMP airspace redesign for the Chicago area by adding
sectors to O’Hare airspace. As many as five additional sectors need to be
established to the west and north of O’Hare by 2013. Maximizing the full benefits
of the OMP will reduce arrival and departure delays to an average of 5 minutes per
flight, while at the same time increasing daily arrivals and departures by an
average of 15 percent (or an average daily total of 419 arrivals and departures
combined).

The exact extent of the airspace redesign may ultimately change from the current
plan of five new sectors due to advancements in technology or other factors
affecting management of airspace. The work to date on this effort is still in the
conceptual stage, and FAA needs to conduct technical analyses to determine the
feasibility of implementing this airspace redesign in terms of the availability of
frequencies, staff, and equipment.
                                                                               21


We note that a number of airspace changes need to be made outside of Chicago
airspace that are important to sustain the expected benefits of the OMP. When
new departure routes are added to O’Hare, the airspace around Cleveland and
Indianapolis will have to be modified to allow these Air Route Traffic Control
Centers to accept increased departures from O’Hare. These efforts are outside the
scope of the Chicago Area Modernization Program Office. According to Mitre,
proposed sector and routing changes in the Cleveland and Indianapolis Centers
will sustain the benefits of the Chicago area redesign projects. FAA plans to add
two new sectors to the Cleveland Center and three new sectors to the Indianapolis
Center.

FAA has not yet finalized the costs and resource requirements for making these
airspace changes. FAA needs to identify the resources that will support the
airspace changes (i.e., additional radio frequencies, communication equipment,
and staffing levels).

RECOMMENDATIONS
Prior to approving the City’s request for $640 million in PFCs and $300 million in
AIP discretionary grants for Phase 1 or any PFC or AIP grants for Phase 2, the
Federal Aviation Administrator needs to ensure that the public’s investment in the
project is protected by reviewing the OMP financial plan and determining that:

1. The benefits and costs represented in OMP Phase 1 and Phase 2 are fully
   disclosed and considered and that the costs are realistic, reasonable, credible,
   executable, and stated in escalated dollars reflecting any projected increase in
   the cost of labor and materials.

2. The schedule is realistic and takes into account any known risks that could
   affect Phase 1 and Phase 2 project costs and milestones.

3. Funding sources—AIP, PFC, third-party financing, and bonds—are fully
   disclosed, can handle the expected cash flow needed to pay for Phase 1 and
   Phase 2 projects, and are not otherwise committed or encumbered for the
   O’Hare Capital Improvement Program or World Gateway Program.

FAA also needs to develop an overall airspace redesign implementation plan, with
incremental phasing of the proposed changes that is carefully synchronized with
the proposed OMP airfield changes.          Specifically, the Federal Aviation
Administrator needs to:

4. Appoint one senior official with overall responsibility for airspace redesign
   who can direct the planning, resources, budget, schedule, and implementation
   of airspace changes necessary to support the OMP.
                                                                                 22


5. Develop a schedule that synchronizes implementation of airspace changes with
   airfield changes and send to Congress a budget linked to this schedule that
   identifies the timing and cost of all the necessary equipment and other
   resources needed to complete the OMP airspace changes, including the
   airspace changes outside the Chicago area that further enhance the OMP.

6. Prioritize its airspace changes with the OMP airfield improvements and
   sequence them in an order that maximizes the benefits from the airfield
   projects.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We sent a draft copy of this report to FAA on April 29, 2005. On May 20, 2005,
FAA provided us with its formal written response. On May 26, 2005, we met with
the Deputy Associate Administrator for Airports and other Agency officials to
discuss FAA’s comments and response to our recommendations. After this
meeting, FAA provided us with additional comments clarifying its actions taken or
planned to address our recommendations.

While FAA disagreed with some conclusions in the report, the Agency agreed
with our recommendations and if FAA conducts its planned actions in the manner
it has stated in its written comments, its actions will be responsive to our
recommendations. In light of the importance of the actions FAA must take to
ensure the success of the OMP, we intend to review FAA’s and its consultant’s
actions from time to time. FAA’s full response can be found in the Appendix.
FAA’s response to the draft report recommendations is summarized below.

Recommendations 1, 2, and 3. In order to accomplish the recommended
analysis, FAA will hire an airport financing consultant to help analyze the benefits
and costs, schedule, and proposed financing for both phases of the OMP. This
analysis will include four tasks: (1) establishing the current financial situation at
O’Hare, (2) analyzing financial impacts under the proposed OMP Phase 1,
(3) analyzing financial impacts under the full OMP, and (4) reviewing the
benefit-cost analysis. The analysis of financial impacts will include a sensitivity
analysis examining the impact of delays in construction schedules, cost increases,
and deviations from the City’s requested LOI amount or payment schedule.
Should the OMP ultimately be approved by the FAA in its Record of Decision,
FAA expects to reach a decision on the LOI for OMP Phase 1 shortly after
completion of the Record of Decision planned for September 2005. FAA stated
that it plans to document its findings about the recommendations at that time.
                                                                                 23


We would like to point out the importance of doing this review in terms of FAA’s
due diligence to ensure the OMP’s costs, schedule, and sources of funding are
realistic, reasonable, and credible.          The City’s estimate of $6.6 billion
(2001 dollars) is not likely to be the final cost of the OMP due to increases in
construction costs since 2001, potential schedule changes, and less precision in
Phase 2 costs compared to Phase 1 costs. Also, FAA has been admonished by a
Federal court for its financial review in the past. In 2004, the United States Court
of Appeals for the District of Columbia Circuit reversed FAA’s approval of the
City of Chicago’s $221 million PFC application for O’Hare, concluding that FAA
had not fulfilled its legal obligation to analyze the cost.

Recommendations 4, 5, and 6. FAA stated that development of an airspace
redesign implementation plan to address the recommendation is underway. Also,
FAA stated it will designate a focal point within the FAA Air Traffic Organization
to coordinate the execution and timing of planned airspace changes associated
with OMP implementation. To fully meet the intent of our recommendation, we
believe FAA needs to appoint an official to oversee the airspace redesign with the
proper responsibility and authority to decide what needs to be done and when it
needs to be done and then direct FAA units to do it. We recognize that this may
require someone who can cut across bureaucratic lines, has authority over the
entire project, and can speak directly to the Administrator or Deputy Administrator
of FAA.

FAA provided additional responses to our recommendations in a document that
was attached to its May 20, 2005 written comments containing its suggested text
changes to the draft report. Due to the length of the document, it is not included in
this report. We did incorporate FAA’s text changes as deemed necessary. In the
document, FAA stated that it is currently developing a detailed schedule to ensure
that airspace redesign efforts are timed, budgeted, and funded in synchrony with
the City’s OMP construction schedule. Also, FAA stated that costs associated
with airspace changes beyond Chicago are being developed in concert with the
OMP requirements. In addition, FAA stated that the necessary airspace changes
have been prioritized to provide the most benefit to the phased OMP airfield
construction.

While these actions are responsive to our recommendations, we are requesting that
FAA provide us with: (1) an estimated target date for developing an airspace
redesign implementation plan, (2) an estimated target for when an official will be
appointed to oversee airspace redesign implementation for the OMP and what
level of authority and responsibility the official will be given in the organization,
(3) an estimated target date for when the airspace changes schedule and associated
budget will be finalized, and (4) support that the airspace changes have been
prioritized to provide the most benefit to the phased OMP airfield construction.
                                                                               24


In addition to its response on our report recommendations, FAA also made
general comments about its view of our report conclusions. FAA stated it
disagreed with the (1) comparative reference of the OMP proposal to the Big Dig;
(2) characterization of the City’s AIP funding request for the OMP as
“unprecedented”; and (3) assertion that FAA does not have an adequate process
for assessment of cost, schedule, and sources of funding for airport development
projects.

• Comparative Reference of the OMP Proposal to the Big Dig. As FAA stated
  in its comments, “FAA does not agree with the implication that the OMP
  proposal (and FAA’s role in regard to the proposal) is analogous to the
  ‘Big Dig’ ” and further requested that the reference to the Big Dig be deleted
  from the report. Our reference to the Big Dig is to illustrate that the OMP, like
  the Big Dig, is a large transportation infrastructure project that will have a
  substantial public investment that FAA must protect through an increased level
  of oversight of project costs and schedule. We also point out that the OMP is
  one of the first projects of its kind for an existing airport in terms of cost,
  magnitude, and complexity and that the $6.6 billion price tag that is being
  advertised today is not likely to be the actual cost of the OMP. Therefore,
  FAA’s role in regards to the OMP should be to provide a higher level of
  scrutiny over the project’s costs, schedule, and sources of funding.

• Characterization of the City’s AIP Funding Request for the OMP Is
  “unprecedented.” In our report, we stated that the City is requesting an
  unprecedented amount of AIP discretionary funds for Phase 1—$300 million
  or $30 million each year for 10 years. The City is requesting this $300 million
  from FAA through a single LOI. In its comments, FAA indicated that while
  $300 million in discretionary funds is large, it is not out of line with AIP
  funding commitments made to other large airport development projects (e.g.,
  Detroit, Denver, and St. Louis). Only Denver has received over $300 million
  in AIP discretionary funding, and this was to build the new Denver airport.
  FAA provided $340 million in discretionary AIP funding for the construction
  of multiple runways at a new airport in Denver. However, the $340 million
  was not a single LOI. The $340 million consisted of a $250 million LOI in
  discretionary funding and about $90 million in pre-LOI AIP discretionary
  funds. Thus, we are not aware of, nor did FAA provide support for (see
  Attachment 2 to FAA’s June 15, 2005 written comments in the Appendix in
  this report), any other single airport sponsor’s LOI request or planned LOI
  request for a single grant of $300 million in AIP discretionary funds for an
  existing airport. We are also not aware of any single airport sponsor’s multiple
  LOI requests for more than $528 million in AIP discretionary funds, which
  represents the City’s total planned LOI requests for AIP discretionary funds for
                                                                              25


   Phase 1 and Phase 2. Therefore, we continue to believe the City’s LOI request
   is unprecedented.

• Assertion That FAA Does Not Have an Adequate Process for Assessment of
  Cost, Schedule, and Sources of Funding for Airport Development Projects. In
  its comments, FAA disagrees with the implication that it is not exercising due
  diligence in analysis of the reasonableness and credibility of project costs and
  sources of funding. In our draft report, we identified the need for increased
  oversight of the OMP given the size and scope of the project and the potential
  for cost or schedule overruns. In its comments to our draft report, FAA
  provided us with additional information on this issue, including its use of
  private sector financial consultants to review large and complex airport
  development projects in the past and its plan to use a financial consultant to
  review the benefits and costs of the OMP. FAA’s plan to conduct a financial
  review of the OMP with a financial consultant appears to be adequate if the
  reviews are conducted as stated in its written comments.

ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving target dates for planned actions to be taken for
Recommendations 4 and 5 and evidence of actions taken for Recommendation 6
within 30 calendar days. You may provide alternative courses of action that you
believe would resolve the issues presented in this report.

We appreciate the courtesies and cooperation of FAA representatives during this
review. If you have any questions concerning this report, please call me at
(202) 366-1959 or David A. Dobbs, Assistant Inspector General for Aviation and
Special Program Audits, at (202) 366-0500.

                                        #

cc: The Secretary
    Deputy Secretary
    Chief of Staff
    FAA Deputy Administrator
    FAA Chief of Staff
    Anthony Williams, ABU-100
    Martin Gertel, M-1
                                                                             26



EXHIBIT A. SCOPE AND METHODOLOGY

The audit was conducted from March 2004 to April 2005. We conducted our
review in accordance with Generally Accepted Government Auditing Standards
prescribed by the Comptroller General of the United States.

We initiated our review in response to the request from Representative
Henry J. Hyde and former Senator Peter G. Fitzgerald to examine FAA’s process
for reviewing and approving the City’s OMP.                 In their request,
Representative Hyde and Senator Fitzgerald expressed concerns about (a) whether
FAA’s process for reviewing the OMP was fair, open, and transparent to all
interested parties; (b) the financial viability of the OMP; (c) technical issues
involving the airspace around O’Hare; and (d) whether specific guidelines were
being met for system and master planning at O’Hare.

On June 16, 2004, we met with Senator Fitzgerald and his staff and agreed to
focus our review on the status of FAA’s work on the OMP EIS; FAA’s process for
verifying the reasonableness and credibility of the OMP costs, schedule and
sources of funding; and FAA’s actions taken and needed for completing
substantial changes to the airspace to accommodate the OMP.

We did not assess the EIS process during this review, since there is a
well-established Federal environmental review process that involves the
collaboration and coordination of several Federal agencies, state and local
authorities, and public-interest groups representing communities surrounding
O’Hare.

To obtain information on all aspects of FAA’s involvement with the system and
master planning at O’Hare, we held extensive discussions with officials at FAA’s
Chicago Area Modernization Program Office, the office responsible for
overseeing FAA’s role in the O’Hare Modernization Program. Over the course of
our review, we met on several occasions with FAA’s staff responsible for
(1) conducting the environmental review of the OMP, (2) reviewing O’Hare’s
Master Plan and Airport Layout Plan, (3) overseeing the work on the Total Airport
and Airspace Modeler (TAAM) computer model, and (4) budgeting and managing
airspace redesign for O’Hare. We also reviewed the City’s Airport Layout Plan,
Master Plan, and airspace redesign budget and plans and viewed computer
simulation modeling of the TAAM for the OMP. We also met with the FAA
Great Lakes Regional Administrator and officials from the region’s Airports
Division and Flight Procedures Office. We toured the airport to view where
proposed OMP development would take place. We also visited the surrounding
neighborhoods to view the land the City plans to acquire to support the OMP.



Exhibit A. Scope and Methodology
                                                                             27


In reviewing the financial viability of the OMP, we held extensive discussions
with City officials, including the Executive Director and key staff of the O’Hare
Modernization Program and the City’s OMP consultant. We reviewed O’Hare’s
Master Plan, financial statements for the years ended December 31, 2002 and
2003, the OMP Financial Plan as submitted in the City’s Request for a LOI for
AIP discretionary funds, supplemental documentation provided by the City in
support of the LOI, and GARB prospectuses. We also met with the staff from
FAA’s Airports Financial Assistance Division and the Financial Analysis and
Passenger Facility Charge Branch. We reviewed relevant laws and regulations
related to PFC and AIP funding for airport development.

To understand the technical issues involving airspace changes in and around
O’Hare, we met with officials in the Air Traffic Organization, including the
Vice President of Transition, the Director of System Operations and Safety, the
Director of Spectrum Management, and key staff. We also met with FAA officials
in the Chicago Air Traffic Route Control Center, the Chicago Terminal Radar
Approach Control facility, and the O’Hare Control Tower. We reviewed FAA’s
airspace redesign plans, including the FAA Flight Plan, the Operational Evolution
Plan, and the Great Lakes Region National Airspace Redesign Integrated Design
Plan. We also reviewed the results of the TAAM computer model for the OMP
and additional documentation provided by Mitre regarding airspace changes
necessary to support the OMP. We did not assess the validity of the information
in the City’s, FAA’s, and Mitre’s computer modeling for the airspace redesign,
including the TAAM.

We also met with the mayors of surrounding communities, groups opposed to the
OMP, law firms representing persons opposed to the OMP, and representatives of
businesses in favor of the OMP.




Exhibit A. Scope and Methodology
                                                                                  28



EXHIBIT B. PROGRAM COMPONENTS OF O’HARE’S MASTER
PLAN
O’Hare’s Master Plan outlines projects and funding sources over the next 20 years
that will allow the airport to meet future demand. The Plan represents all that
could be built at O’Hare and not what must be built. The Plan gives the airport
and the airlines flexibility to determine which projects move forward and when,
based on market demand and the approval of the airlines servicing O’Hare.



                               O’HARE’S 20-YEAR
                                 MASTER PLAN

     Capital Improvement          World Gateway            O’Hare Modernization
           Program                    Program                     Program
       $4,128,274,000             $2,643,800,000              $6,600,000,000
      (escalated dollars)          (1999 dollars)              (2001 dollars)



The Airport Capital Improvement Programs funds are essentially repair and
replacement programs, usually consisting of short-term (5-year) maintenance
improvements and long-term maintenance improvements. Resurfacing an existing
runway is an example of a maintenance improvement under the Capital
Improvement Program. O’Hare’s Capital Improvement Program, estimated to
cost more than $4 billon projected over 20 years, will be implemented with or
without the World Gateway Program and the O’Hare Modernization Program or
any other future airport development project. O’Hare’s annual operation and
maintenance expenditures, such as snow removal and regularly scheduled
escalator and elevator maintenance, are not part of O’Hare’s Capital Improvement
Program.

The World Gateway Program, estimated to cost more than $2.6 billion in
1999 dollars, would allow the airport to build additional gate capacity through
construction of two new terminals—Terminal 6 and Terminal 4. To accommodate
traffic at the new terminals, Concourse K will be extended, new taxiways will be
constructed, and existing taxiways will be reconfigured. Terminal 6 will have
space for 18 aircraft, and Terminal 4 for 13. In December 2000, the City began
work on the development of the Program, but work was suspended in
September 2002 because of changes in the industry and economy. Market demand
will guide the World Gateway Program’s future development.




Exhibit B. Program Components of O’Hare’s Master Plan
                                                                              29



EXHIBIT C. OMP FUNDING STREAMS AND APPROVAL
PROCESS
The City plans to fund the OMP through five sources as are shown here:

    General         Passenger      Third-Party          AIP             AIP
    Airport          Facility       Financing      Discretionary    Entitlement
    Revenue          Charges       (10 percent)        Funds           Funds
     Bonds         (22 percent)                     (8 percent)     (1 percent)
  (59 percent)
 $3.894 Billion   $1.452 Billion   $660 Million    $528 Million     $66 Million


Financing includes GARBs, PFCs, third-party financing, and AIP entitlement and
discretionary funds.

• GARBs are bonds backed by the revenues generated by the airport, such as
  airline rates and charges. The City must get approval from O’Hare’s
  Majority-In-Interest airlines to issue GARBs.

• PFCs are imposed on air travelers to help finance eligible airport-related
  projects, such as new runways. An airport sponsor can collect a PFC of up to
  $4.50 per passenger flight segment with an $18 limit on a round-trip ticket.

   The City must consult with the airlines servicing O’Hare when requesting a
   PFC and must get approval and authorization from FAA to collect and use
   PFCs. Only Congress can authorize an increase in PFCs above the current
   $4.50 per passenger flight segment.

• Under third-party financing, the debt service on bonds issued to pay for the
  western terminal facility proposed in the OMP would be paid by revenues
  generated by the terminal. The City must get approval from O’Hare’s
  Majority-In-Interest airlines to seek third-party financing for the western
  terminal facility if it affects the airlines’ rates and charges.

• AIP entitlement funds are allocated to primary airports, cargo service airports,
  and states based on statutory provisions and are calculated using specific
  formulas. AIP discretionary funds are the funds that remain after entitlements
  are allocated. FAA approves and authorizes the use of AIP discretionary
  funds.




Exhibit C. OMP Funding Streams and Approval Process
           APPENDIX. AGENCY COMMENTS                                                               30



                                                          Memorandum

Subject:   INFORMATION: FAA's Response to the Office                    Date:

           of Inspector General's Draft Report: Chicago's
           O'Hare Modernization
  From:    Assistant Administrator for Financial Services and        Reply to
                                                                     Attn. of:
             Chief Financial Officer

    To:    Assistant Inspector General for Aviation and
             Special Programs Audits

           This memorandum is provided in response to the subject report. The FAA has reviewed
           the draft OIG document. The paragraphs below contain an overview of some substantive
           issues addressed in our comments, as well as a synopsis of our response specifically
           regarding the recommendations contained in the draft report. Additionally, we have
           attached an edited copy of the draft report that conveys, in detail, all FAA comments and
           suggested changes to the text of the report.

           In general, we concur with the recommendations outlined in the draft report (see below).
           However, we believe that there are some substantive issues that must be highlighted and
           resolved in order to ensure the information contained in the report is accurate and to
           clarify the scope of the report’s recommendations. The following paragraphs summarize
           some of the key issues that the FAA believes warrant further discussion.

           Comparative reference of the O’Hare Modernization Program (OMP) proposal to
           Boston’s Central Artery/Ted Williams Tunnel project (also known as the “Big Dig”
           project): The OIG draws a comparison in its draft report between the OMP proposal and
           the “Big Dig.” The FAA does not agree with the implication that the OMP proposal (and
           FAA’s role in regard to the proposal) is analogous to the “Big Dig.” First, the FAA’s
           share of Phase 1 of the overall OMP would be less than percent of the projected Phase 1
           project cost, with the vast majority of the project cost and risk to be borne by the local
           airport sponsor and private investors (via general airport revenue bonds). The Federal
           share of the “Big Dig” project was significantly higher. Secondly, the OMP proposes a
           phased project implementation, with each phase producing independent benefits. The
           “Big Dig” could not be separated into discrete phases with associated independent
           benefits. Lastly, as complex as the OMP proposal may be, it still represents essentially a
           surface paving and reconfiguration project. As such, it is far simpler and less uncertain
           than the “Big Dig,” which involved tunneling underwater and constructing bridge
           structures in water. The FAA suggests that the comparative reference of the OMP
           proposal to the “Big Dig” project be taken out of the draft OIG report.


           Appendix. Agency Comments
                                                                                         31


Characterization of the City of Chicago’s Airport Improvement Program (AIP)
funding request for the OMP as “unprecedented”: The FAA considers this
representation to be inaccurate for the following reasons. First, while the AIP Letter of
Intent (LOI) request from the airport sponsor for $300 million in discretionary funds is
large, it is not out of line with AIP funding commitments made toward other large airport
development projects (Detroit, Denver, and St. Louis being examples). Secondly, when
considered on a “per runway” basis, the OMP Phase 1 proposal, and the $300 million
LOI request, is on a par with the FAA’s normal planning target of $100 million
discretionary dollars per runway for LOIs at large hub airports. Specifically, on a per
runway basis, the OMP proposal and associated LOI request ranks below such locations
as Seattle, St. Louis, and Atlanta. Third, on a percentage basis, the requested FAA
participation in funding the OMP proposal (approximately 10 percent of the project cost)
is among the lowest of any LOI request for runways at large hub airports.

Assertion that FAA does not have an adequate process for assessment of cost,
schedule, and sources of funding for airport development projects: The FAA disagrees
with the implication in the OIG report that the Agency is not exercising due diligence in
analysis of the reasonableness and credibility of project costs, funding sources, etc. The
LOI process includes a requirement for airport sponsors to submit a project financing
template and analysis of alternate payment streams. These submissions are reviewed by
FAA staff and determinations are made by the Agency concerning reasonableness of
project costs and financial feasibility. Additionally, for larger, more complex projects
and LOI requests, the FAA obtains assistance in its analysis from outside (private sector)
airport finance experts. The OIG report suggests that it is time for the FAA to “raise the
standard” regarding its review of LOI requests for large airport development proposals.
In fact, the FAA believes it has done just that on relatively recent large projects such as
Seattle and St. Louis. The FAA agrees that the OMP deserves additional scrutiny and is
applying that higher level of diligence to the OMP proposal and its associated LOI
request. In summary, the FAA believes that the level of scrutiny applied to analysis of
project cost and funding plans by FAA staff (and, when warranted, outside experts
supporting FAA’s work) is adequate to assure appropriate LOI program management,
proper utilization of AIP discretionary dollars, and compliance with all statutory
requirements applicable to the FAA’s management of allocated AIP funds.

Differentiation between FAA’s statutory responsibilities regarding assessment of costs
and benefits for OMP Phase 1 vs. OMP Phase 2: The AIP funding statute governing
LOIs requires the FAA to assess the benefits and costs of the project proposed for LOI
funding and to evaluate the system impacts of the project proposed for LOI funding (49
USC 47110(e)(2)(C); 49 USC 47115(d)(1).(2)). In addition, the statutory requirement for
a determination that the sponsor has sufficient funds to finance the non-Federal share of a
project is limited to the specific project for which funding is sought (49 USC
47106(a)(3)). Since the City of Chicago is seeking AIP funding at this time for only
Phase 1 in its pending LOI application submitted to FAA, the law requires that FAA
make the benefit-cost evaluation and system capacity determinations for
Phase 1 on a stand-alone basis. In addition, the costs and benefits of OMP Phase 2 are, at
this time, less defined than the costs and benefits associated with Phase 1. For these
reasons, the FAA does not intend to evaluate the benefits or costs of Phase 2 to the same

Appendix. Agency Comments
                                                                                            32


level of detail as will be done for Phase 1. The analysis of Phase 2 benefits, costs, and
financial feasibility in the level of detail required by the AIP funding statute, to support a
commitment of AIP funds, will be made by FAA when the City of Chicago makes
application for LOI funding for Phase 2.

As stated above, a complete and detailed presentation of the FAA’s comments and
suggested changes regarding the draft OIG report is contained in the attached copy of the
draft report.

Concerning the specific recommendations contained in the draft OIG report, the FAA
offers the following:

Recommendation concerning the need for FAA to ensure that the public’s investment
in the project is protected by reviewing the OMP financial plan and determining that:
    1. The benefits and costs for OMP Phase 1 and Phase 2 are fully disclosed,
        considered, and determined to be reasonable.
    2. The schedule is realistic and considers known risks.
    3. Funding sources are fully disclosed and can be expected to pay for OMP Phase
        1 and Phase 2.

FAA Response: The FAA agrees with this recommendation for OMP Phase 1 and, to
the extent that benefits, cost, schedule, and financing can be analyzed at this point in time
for Phase 2, the FAA will assess Phase 2 within the context of a sensitivity analysis
covering a range of reasonable assumptions.

Recommendation that FAA needs to develop an overall airspace redesign
implementation plan that is synchronized with the proposed OMP airfield changes,
specifically including:
   4. Appointment of one senior official with overall responsibility for management
        of airspace redesign.
   5. Development of an implementation schedule that synchronizes airspace
        changes with anticipated airfield changes.
   6. Prioritization of airspace changes to maximize operational benefits as the OMP
        is implemented.

FAA Response: The FAA agrees with this recommendation. Development of an
implementation plan to address the recommendation is well underway, and designation of
a focal point within FAA’s Air Traffic Organization, to coordinate the execution and
timing of planned airspace changes associated with OMP implementation, will be
undertaken.

The FAA appreciates the opportunity to comment on the OIG’s draft report before a final
report is developed. FAA representatives are available to discuss the comments and




Appendix. Agency Comments
                                                                                      33


suggested changes to the draft report that are contained in this memorandum and its
attachment. Should you have comments or need additional information, please contact
Mr. Barry Cooper, Manager, Chicago Area Modernization Program Office, at
847-294-7812.




Ramesh K. Punwani


Attachment




Appendix. Agency Comments
                                                                                                  34




                                                          Memorandum

Subject:   INFORMATION: Additional Information form                    Date:

           FAA in Regard to the OIG's Draft Report:
           Chicago's O' Hare Modernization Program
  From:    Assistant Administrator for Financial Services and       Reply to
                                                                    Attn. of:
             Chief Financial Officer

    To:    Assistant Inspector General for Aviation and
             Special Programs Audits


           On May 20, the FAA submitted to your office its comments on the subject draft report.
           Following your office’s review of those comments, further discussions between FAA and
           the OIG took place during the week of May 23. On June 2, as a result of those further
           discussions, FAA forwarded to you, via e-mail, additional information including some
           suggested revised wording for various paragraphs contained in the draft report. A
           representative of the OIG subsequently contacted FAA on June 8, requesting that the
           information submitted to you by FAA via e-mail on June 2, be formally transmitted to
           you in memorandum form. The purpose of this memorandum is to formally retransmit
           FAA’s June 2 comments regarding the draft OIG report.
           Accordingly, please find attached FAA’s additional input on the draft OIG report.
           Attachment 1 contains suggested verbiage for inclusion in the final report. Attachments 2
           and 3 contain spreadsheets that provide information concerning Federal funding
           commitments to other recent new runway projects.
           Should you have questions concerning the attached information, please contact
           Mr. Anthony Williams, Budget Policy Division, at 202-267-9000.




           Ramesh K. Punwani

           Attachments




           Appendix. Agency Comments
                                                                                         35
                                                                            June 10, 2005

ATTACHMENT 1


    FAA RESPONSES TO SPECIFIC COMPONENTS OF DRAFT OIG REPORT,
           “CHICAGO’S O’HARE MODERNIZATION PROGRAM”
                      PROJECT NO. 04B3006B000


Page 5 of draft OIG report, second paragraph (middle of page), regarding the Federal
court remand of FAA’s PFC decision. FAA offers the following alternative verbiage:

FAA needs to fulfill its legal obligation for approving and authorizing PFC and AIP
grants. The PFC statute requires the FAA to make several findings before approving a
PFC, including a finding that the proposed PFC will result in revenue that is not more
than is necessary for financing the specific project. The AIP statute has similar
requirements, including one that project costs be reasonable in amount in order for them
to be allowable. In a 2004 ruling, the United States Court of Appeals for the District of
Columbia Circuit 9 reviewed a prior PFC decision to fund the O’Hare OMP EIS, and
concluded that the administrative record did not demonstrate that the FAA had fulfilled
its legal obligation to analyze the costs proposed to be financed with PFCs. Considering
the controversy surrounding this project and the likelihood of further litigation, it is
essential for the FAA to exercise due diligence in reviewing the City’s LOI, including the
OMP financial plan, and any PFC applications the City submits to fund the OMP’s
design and construction projects, and to assure that the City provides sufficient
documentation to support any statutory required findings by FAA.


Pages 18 and 19 of draft OIG report, in response to Recommendations 1, 2, and 3,
FAA offers the following verbiage:

The FAA agrees with these recommendations for Phase 1 and to a limited extent for
Phase 2. Since the City is seeking AIP funding for only Phase 1 in the pending LOI
application, the law requires that we make the BCA evaluations and system capacity
determinations for Phase 1 on a stand-alone basis. The AIP funding statute governing
LOIs requires the FAA to assess the benefits and costs of the project proposed for LOI
funding and to evaluate the system impacts of the project proposed for LOI funding (49
USC 47110(e)(2)(C); 47115(d)(1),(2)). In addition the statutory requirement for a
determination that the sponsor has sufficient funds to finance the non-Federal share of a
project is limited to the specific project for which funding is sought (49 USC
47106(a)(3)). , As discussed in our comments on other portions of the draft, timing, costs
and benefits of phase 2 are more uncertain at this time. For these reasons, FAA does not
plan on evaluating the benefits or costs of Phase 2 in the same level of detail as we use
for Phase 1. The analysis of Phase 2 benefits, costs and financial feasibility in the level
9
    Village of Bensensville v. FAA, 376 F.3d 1114 (D.C. Cir. 2004).


Appendix. Agency Comments
                                                                                          36
of detail required by the AIP funding statute to support a commitment of AIP funds will
be made when and if the City applies for LOI funding for Phase 2.
In order to accomplish the recommended analysis, the FAA will hire an airport financing
consultant to help analyze the benefits and costs, schedule, and proposed financing for
both phases of the OMP. This analysis will include four tasks including: establishing the
current financial situation at O’Hare; analyzing financial impacts under the proposed
OMP – Phase 1; analyzing financial impacts under the full OMP; and a review of the
benefit cost analysis. The analysis of financial impacts will include a sensitivity analysis
examining the impact of the following: delays in construction schedules; cost increases;
and deviations from the City's requested LOI amount or payment schedule. In this
context, should the OMP ultimately be approved by the FAA via an Environmental
Impact Statement Record of Decision (EIS ROD), FAA expects to reach a decision on
the LOI for the Phase 1 OMP shortly after completion of the EIS ROD. The FAA
expects to document its findings in regard to the recommendations at that time.




Appendix. Agency Comments
                                                                                                                                                                                37


                                                                                ATTACHMENT 2
                                                                   AIP Participation for Large Runway Projects

 Year      Length                Location                State    Hub        Description         Disc ($M)   Ent ($M)   Total Federal   Total Project Fed Rate (all    Fed Rate
            (yrs)                                                                                                           ($M)         Cost ($M)     AIP funds)     (disc. Only)
                                                                                                                                           [OEP
                                                                                                                                         Reporting]


LOIs for Single Runway Programs
 2002         3                              Denver *      CO     Large          New Runway         99         33           132             180               73%             55%
 2004         8                                Boston      MA     Large          New Runway         58         33            91             138               66%             42%
 2000        10                               Houston      TX     Large          New Runway        100         93           193             298               65%             34%
 2001        10                             Cincinnati     KY     Large          New Runway        100         32           132             233               57%             43%
 1999        11                                 Miami       FL    Large          New Runway         69         35           101             215               47%             32%
 1999        10                               Orlando       FL    Large          New Runway         36         38            74             203               36%             18%
 2000        14                             Cleveland      OH      Med           New Runway        100         48           148             458               32%             22%
 2001        13          Seattle (w/ 2 amendments)*        WA     Large          New Runway        181         94           301            1,054              29%             17%
 2003        10           St Louis (w/ amendment)*         MO      Med           New Runway        170         46           216            1,100              20%             15%
 1999        12                           Minneapolis      MN     Large          New Runway         95          0            95             563               17%             17%
 1997        10                       Atlanta (2 LOIs)     GA     Large          New Runway        179          0           179            1,350              13%             13%
                                  Total (11 locations)                                            1,187                    1,662
                               Average LOI approval                                                108                      151


LOIs for Multiple Runway Programs
 1990        10        Denver (with Pre-LOI grants)*       CO     Large         New Airport (5     340         104          444            4,269              10%              8%
                                                                                    runways)
 1990        18                                Detroit      MI    Large       2 New Runways        204         96           300              ?

  2005       10          Chicago O'Hare (proposed)*          IL   Large   2 Runways & runway       305         56           360                  2,880        13%             11%
                                                                                    extension

* Includes AIP funding outside the LOI




Prepared by the Federal Aviation Administration                                                                                                                            5/31/05



Appendix. Agency Comments
                                                                                                                                     38

                                                                                ATTACHMENT 3
                                                                   Total AIP funding at locations receiving LOIs

               Total AIP (2001-2004)                          LOI payments (2001-2004)        AIP less LOI payments (2001-2004)
 Location      Ent ($M)      Disc ($M)      Total        Ent($M)        Disc ($M)    Total    Ent ($M)    Disc ($M)     Total
                                           Federal                                  Federal                            Federal
                                            ($M)                                     ($M)                               ($M)


    Houston       90            81           170            36             42         78        54           39           92
      Miami       58            37            95            28             18         46        30           20           50
    Orlando       38            94           132            6              25         30        32           70          102
  Cleveland       15            78            93            10             46         56         5           33           37
     Seattle      30           156           186            26             58         84         5           98          102
    St Louis      28           151           180            18             68         86        11           83           93
Minneapolis       27           123           150            0              42         42        27           81          108
     Atlanta      39           179           218            0              61         61        39          118          157
     Detroit      32            84           116            21             49         70        11           35           47




     Notes:
All locations received LOI payments each of the 4 years (FY 01 - FY 04)
FY 01- FY 04 represent increased AIP levels due to AIR-21 legislation




Prepared by the Federal Aviation Administration                                                                                   5/31/05


Appendix. Agency Comments
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to assist screenreaders.
                       Figure 1. Total OMP Funding Streams

General Airport             Passenger Facility           Third Party                  Airport
Revenue Bonds               Charges (PFC)                Financing                    Improvement
(GARB)                                                                                Program (AIP)
$3.89 billion               $1.45 Billion                $0.66 Billion                $0.59 Billion


                Figure 2. Average Minutes of Delay per Flight:
                           With and Without OMP

Year                                  OMP with Airspace                     No OMP – No Airspace
                                      Changes                               Changes
2004                                  not applicable                        19.2
2007 – New Runway                     15.5                                  16.2
2009 – Phase 1                        10.3                                  15.9
Completed
2013 – Phase 2                        5.0                                   17.2
Completed
Source: Total Airspace and Airport Modeler for 2007 – 2013 data. FAA’s Aviation System Performance Metrics and
Air Traffic Activity Data System for 2004 data.
Note: 2004 figures include the effect of flight caps effective as of November 1, 2004.



                   Figure 3. Average Daily Flight Operations:
                             With and Without OMP

Year                                  OMP with Airspace                     No OMP – No Airspace
                                      Changes                               Changes
2004                                  not applicable                        2,712
2007 – New Runway                     2,898                                 2,750
2009 – Phase 1                        2,987                                 2,750
Completed
2013 – Phase 2                        3,169                                 2,750
Completed
Source: Total Airspace and Airport Modeler for 2007 – 2013 data. FAA’s Aviation System Performance Metrics and
Air Traffic Activity Data System for 2004 data.
Note: 2004 figures include the effect of flight caps effective as of November 1, 2004.
Figure 4. Average Minutes of Delay: New North Runway Versus
  No Action Option With and Without Airspace Changes, 2007
Scenario                  Arrival                   Departure   Average
New North                 11.7                      7.5         9.6
Runway With
Airspace
Modifications
No New North              19.8                      12.8        16.3
Runway With
Airspace
Modifications
New North                 19.8                      19.4        19.6
Runway Without
Airspace
Modifications
No New North              19.8                      19.4        19.6
Runway, No
Airspace
Modifications

Source: FAA’s presentation of data from the Mitre Corporation
